<html>
<title> - REAUTHORIZING THE OLDER AMERICANS ACT: ENCOURAGING HEALTHY LIVING AS BABY BOOMERS AGE</title>
<body><pre>[Senate Hearing 111-832]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-832

                 REAUTHORIZING THE OLDER AMERICANS ACT:
             ENCOURAGING HEALTHY LIVING AS BABY BOOMERS AGE

=======================================================================

                             FIELD HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                               PUEBLO, CO

                               __________

                            AUGUST 27, 2010

                               __________

                           Serial No. 111-23

         Printed for the use of the Special Committee on Aging





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                  U.S. GOVERNMENT PRINTING OFFICE
  63-678 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                       SPECIAL COMMITTEE ON AGING

                     HERB KOHL, Wisconsin, Chairman
RON WYDEN, Oregon                    BOB CORKER, Tennessee
BLANCHE L. LINCOLN, Arkansas         RICHARD SHELBY, Alabama
EVAN BAYH, Indiana                   SUSAN COLLINS, Maine
BILL NELSON, Florida                 GEORGE LeMIEUX, FLORIDA
ROBERT P. CASEY, Jr., Pennsylvania   ORRIN HATCH, Utah
CLAIRE McCASKILL, Missouri           SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
KIRSTEN GILLIBRAND, New York
MICHAEL BENNET, Colorado
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
                 Debra Whitman, Majority Staff Director
             Michael Bassett, Ranking Member Staff Director

                                  (ii)











                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Mark Udall..........................     1

                                Panel I

Statement of Kathy Greenlee, Assistant Secretary for Aging, U.S. 
  Department of Health and Human Services........................     4

                                Panel II

Statement of Stephen G. Nawrocki, Executive Director, Valley 
  Humane Resource for the Disabled, Pueblo, CO...................    23
Statement of Paul Downey, President, National Association of 
  Nutrition and Aging Services, and President, California 
  Nutrition Coalition............................................    29
Statement of Guy Dutra-Silveira, Director, Pikes Peak Area 
  Council of Governments Area Agency on Aging....................    35
Statement of Dace Carver Kramer, Aging Well Program..............    41

                                 (iii)

  

 
 REAUTHORIZING THE OLDER AMERICANS ACT: ENCOURAGING HEALTHY LIVING AS 
                            BABY BOOMERS AGE

                              ----------                              --



                        FRIDAY, AUGUST 27, 2010

                                       U.S. Senate,
                                Special Committee on Aging,
                                                        Pueblo, CO.
    The committee met, pursuant to notice, at 11:05 a.m. in the 
Cottonwood Room, Colorado State University, 2200 Bonforte 
Boulevard, Pueblo, CO 81001, Hon. Mark Udall, presiding.
    Present: Senator Udall [presiding].
    Moderator. Good morning, everybody. I'd like to welcome you 
here to the city of Pueblo and the CSU Pueblo Campus. I'm 
pretty proud of this facility. I'm an alumni of the university.
    At this time I'd please ask you to stand for the Pledge of 
Allegiance. [Pledge of Allegiance.]
    Thank you. I'm also proud today to introduce our U.S. 
Senator from the State of Colorado Mark Udall. Senator Udall is 
on several important committees representing this great state. 
He's on the Armed Services Committee, Committee of Energy and 
Natural Resources, and the Special Committee on Aging. In 
addition to those special committees, Senator Udall chairs the 
National Parks Subcommittee.
    So, Senator Udall, welcome to Pueblo. [Applause.]

            OPENING STATEMENT OF SENATOR MARK UDALL

    Senator Udall. Thank you, Jerry, and it is wonderful to be 
here in Pueblo. I want to welcome all of you in the audience. 
We're going to have a very informative hearing, of that I have 
no doubt, this morning, and in that spirit, the Special 
Committee on Aging will come to order for this important field 
hearing in the great city of Pueblo in the even greater state 
of Colorado.
    I have an opening statement I'd like to share with 
everybody and then we're going to hear from our first 
panelists. We have about 2 hours scheduled and there will be 
some time during the second panel for questions to come from 
the audience, as well. I'm very much looking forward to hearing 
what all of you may have to say and the questions you may want 
to direct at the second panel.
    I'm very appreciative that the Chairman of the Committee, 
Senator Herb Kohl from Wisconsin, has loaned me his gavel to 
bring the focus of this panel back home to Colorado, and I want 
to also again say how grateful I am that so many of the 
panelists are here on this beautiful Friday morning.
    Ms. Kramer, I know you've come all the way down from Oak 
Creek to be here and, Mr. Downy, I'm sure you've given up 
what's a sunny day in San Diego to be in an even sunnier 
environment here in Pueblo. It's a testament to your enthusiasm 
and your commitment to this very important topic.
    Assistant Secretary Greenlee, you've traveled the farthest 
to join us today. I should tell you the Secretary told me that 
it's not heavy duty to come to Colorado but again I want to 
thank you for giving us the opportunity to showcase the great 
services and programs of the aging community right here in 
Colorado.
    It's a special treat to be able to hear directly from you 
about the reauthorization of the Older Americans Act and to 
have you as a captive audience for our local organizations to 
both brag about their successes but also so they can give you 
their unique perspectives and some recommendations in the 
process.
    I know you've hit the ground running since you were 
confirmed as Assistant Secretary for Aging and I'm confident 
that the Administration on Aging is being steered by an able 
and fresh-thinking leader at a time when services for our 
seniors are more critical than ever.
    Now we're all here today to talk about strengthening a very 
important law which has provided essential services for our 
nation's seniors since 1965, the Older Americans Act. The core 
mission of the OAA has been consistent over the years. Let me 
do quick math. 1965 to 2010, is that 45 years? That mission has 
been helping our more life-experienced friends, life 
experienced in quotations, loved ones and neighbors maintain 
their independence in their homes and their communities, 
promoting a continuum of care for the most vulnerable among us.
    Over the past 45 years, OAA has been improved, modified, 
and expanded, but its core mission has remained steadfast, and 
it has developed a strong aging network represented by many of 
you in this room here today, reaching across the country, in 
every region of every state, to serve as the backbone of the 
critical services it provides.
    The bill, as many of you know, OAA is up for 
reauthorization and for those of you who don't do Washington 
speak, that means it's time to give the law another look and 
figure out how we can improve it.
    With this reauthorization, I believe we have a great 
opportunity to modernize the Act for a new and unique 
generation of seniors. You are all familiar, I'm sure, with the 
staggering task we have before us in terms of serving the 
approaching wave of seniors.
    The baby-boom generation, which I'm a member, I admit, I'm 
even on the right side of 60 now but that's another topic, 
starts to turn 65 next year and the percentage of our 
population in this demographic is growing rapidly. By 2020, one 
out of every six Americans will be 65 years of age or older.
    These Americans fast approaching Medicare eligibility are 
truly of a different generation with different experiences and 
holding different expectations about what their golden years 
should be.
    Now I've asked our panelists today to focus their remarks 
on how we can improve OAA from a prevention and wellness 
perspective. If the charge of the Older Americans Act is 
keeping seniors independent, healthy, and in their communities, 
we can't be successful without focusing on proven disease 
prevention and health promotion programs.
    Madam Secretary, I want to brag. Colorado is the 
healthiest, slimmest, fittest state, but we want to remain that 
way, regardless of the age of our citizens.
    Now to serve this rapidly growing group which is more 
diverse and unique than ever before, we are lucky to have the 
Aging Network to rely on and what I think is great about this 
network and the services currently provided by the Older 
Americans Act is the flexibility it gives states and local 
entities to provide the distinctive needs of their communities.
    One size fits all doesn't work very well here in Colorado 
and it certainly isn't going to work for my generation of baby-
boomers.
    So I hope that maintaining this spirit of flexibility 
remains a priority as discussion of reauthorizing the Older 
Americans Act continues and I'm curious to hear from all of you 
today how we might, from the Federal level, provide AAAs and 
providers with even greater ability and charge to be innovative 
and effective with their resources because leveraging resources 
is going to be key moving forward as it is across all spectrums 
of government and the private sector, and I hope we can find 
better ways of using what we have to make OAA programs work 
better and for more seniors.
    Forming effective partnerships with communities, local 
businesses, governments, and the private sector needs to be a 
central part of these efforts, and I know many of you who are 
here today have become experts at finding inventive ways of 
working together to achieve impressive results.
    I want to hear those stories and I want you to tell us how 
we can help break down any barriers that exist on the Federal 
level from being even more successful.
    With that overview, let me make a few comments about the 
format of the hearing. As I mentioned, we're first going to 
hear from Kathy Greenlee, who serves as the Assistant Secretary 
of Aging at the U.S. Department of Health and Human Services. 
She'll speak about the Administration on Aging's ongoing 
efforts with regard to OAA reauthorization and once she 
concludes her remarks, I'm going to ask a few questions of her 
and she may even have questions of me. We'll see what results.
    Then we'll take a quick break prior to inviting the second 
panel to take their places and provide their testimony. I'll do 
a similar question and answer session with them and then 
hopefully we'll have time and then I'll be able to open it up 
to the audience here to ask questions of the second panel. So 
the second panel should be ready for questions not just from me 
but from the audience, as well.
    So, Assistant Secretary Greenlee, with that, if you'd join 
me up here, we have a placard and a microphone, and as you take 
your seat, let me just tell the audience a little bit more 
about Ms. Greenlee.
    She was appointed by President Obama to serve as the fourth 
Assistant Secretary for Aging, a post she's held since her 
Senate confirmation last June. She brings over a decade of 
experience working in different capacities to keep seniors 
healthy and happy and I'm very pleased she's able to be here 
today with us.
    Assistant Secretary, please proceed with your testimony.

     STATEMENT OF ASSISTANT SECRETARY KATHY GREENLEE, U.S. 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Greenlee. Thank you very much, Senator. Happy birthday.
    As someone who works in the field of aging, I did notice 
that you turned 60 last month. I turned 50 in March and we 
represent, I think, the spectrum of baby-boomers, the two of 
us, all committed to doing this work.
    So I'm very pleased to be here with you today, to be in 
Colorado. I grew up in Kansas, lived there most of my life, and 
so I feel close to home when I come here.
    It's an honor to be able to testify before the Senate 
Special Committee on Aging and I will do the same with your 
committee chair in a couple weeks up in Milwaukee, and it's 
nice to be here also to hear the testimony of my colleagues 
from Colorado.
    I will promise you we are not strangers, that I have worked 
closely with the Colorado network, have been in Colorado 
before, and I've taken the opportunity to see services that are 
delivered here. You have the right to be proud and I'm aware of 
that.
    So I want to thank you for having the hearing, and I 
commend you on your leadership. The reauthorization is unique 
and as we face, as you mentioned, the first boomers turning 65. 
Universally, since I became Assistant Secretary, people have 
indicated that they think this reauthorization is special. It's 
the opportunity to really be visionary and look at the future 
about what we need to do to strengthen the capacity of this 
network while still, maintaining the common goal of helping to 
serve as many seniors as we can and helping them stay 
independent.
    I want to acknowledge Todd Coffey, who's here. Todd's the 
director of your State Unit on Aging. We had just been talking 
beforehand. Todd and I had a bonding experience when we got our 
flu shots together last year in Denver. So we know each other 
well and it's very nice to be here with Todd, as well as many 
members of your aging services network, area agency directors 
and so forth, that are here. You have good strong leadership in 
Colorado and you should certainly be proud.
    The trick this morning in talking to you is to figure out 
how best to be succinct and also demonstrate the depth of my 
commitment to these programs and so I'm quite willing to answer 
questions and respond as I can.
    You pointed out that the Older Americans Act was passed in 
1965, and it was. President Johnson signed it into law and it 
is actually older than Medicare and Medicaid by 16 days. Those 
three laws passed together are really a triumvirate that were 
passed 45 years ago of services meant to blend together to 
support seniors.
    In thinking about the differences between Medicare and 
Medicaid and the Older Americans Act, the beauty of the Older 
Americans Act is it was never intended to be an entitlement. It 
was always intended to be flexible. So I anticipate flexibility 
will be a theme. That certainly is the way this law has always 
been designed and always been delivered, so looking at the 
future on what other flexibilities we can provide is quite 
appropriate. It's really what the law is supposed to do.
    In 1965, there were 26 million Americans aged 60 and over 
and today there are 57 million. We know that there are many 
more seniors on the horizon. As you mentioned, the population 
is not only growing but it's becoming more diverse. Everybody, 
as they age, has the same simple goals and that's to be able to 
remain in their community, in their homes, with their families 
for as long as possible. Those of us who do this work 
understand that one of the critical partners in supporting 
seniors as they age are their caregivers, because caregivers 
are 80 percent of the backbone of the long-term services that 
we have.
    Most people are cared for by their loved ones and that has 
never changed. It needs to be recognized as we move forward, 
that we will need to have an infrastructure that supports 
caregivers and continues to support the growing aging 
population.
    I believe that the enactment of healthy care reform, known 
as the Affordable Care Act, is as significant for seniors as 
those three laws were in 1965. This gives us an opportunity to 
focus on our aging services network, to focus on the health and 
the lives of older Americans, and to figure out how we can best 
take advantage of the expertise that we have gained over the 
past 45 years on how to support healthy living and longevity in 
the community.
    We are looking for those opportunities, are engaged and 
excited by the opportunities that health reform has brought to 
this particular network.
    What I have done with regard to the reauthorization is to 
hold a series of listening sessions. I did a listening session 
in Dallas, TX, I did one in Alexandria, VA, and one in San 
Francisco. We heard from over 400 people who gave us written 
comments, over 300 showed up at these hearings in person to 
testify. They had 3 minutes apiece to testify and they came 
quite long distances to give us information about all of the 
services that we have under the Older Americans Act.
    What I can share with you today are some of the things I 
heard at the sessions, and what I would expect that you would 
hear today. One is a strong commitment to the structure of the 
area agencies and this network with regard to being a single 
point of entry for information and referral. This is the 
backbone of the national structure that we have created for 
being able to access services, whether they're health promotion 
services, or basic information about supports in the community.
    A strong commitment to self-directedness is a core value of 
the Older Americans Act, that the programs and the services are 
tailored to the needs of each single person. Unlike Medicare 
and Medicaid, you don't get the package, you get what you need 
and that's a big difference.
    Flexibility, especially with regard to nutrition, came up 
quite a lot in the public hearings. Integration of medical 
services and health services comes up a lot when you talk about 
chronic disease and disease management. In other words how can 
we use the best of science and the best of social science to 
provide better outcomes, as well as concern about workforce and 
workforce development?
    Even though 80 percent of long-term care in the U.S. is 
provided by caregivers, we will need increasing numbers of paid 
professionals and paraprofessionals to care for our growing 
numbers of seniors. Also, I had the pleasure of hearing 
testimony from Native Americans about the Title VI Programs. I 
was clear in my testimony we're talking about reauthorization, 
not reappropriation, that there's a difference between the law 
and the money that funds the Title VI programs. When we talk 
about Title VI, it's almost impossible to separate the two. 
Programs for the tribes are simply small and it's very 
difficult for tribal organizations to make an impact with the 
dollars because the amounts they have are so small. So we're 
looking for opportunities to be innovative and work with 
tribes.
    I would like to just briefly run through the themes based 
on the specific titles of the law. The first title of the Older 
Americans Act is the guiding principles and those have not 
changed. It's the goal of enhancing the lives of older 
Americans. I don't anticipate we need to change that at all.
    The second title of the law is about the importance of 
advocacy. Unlike many other laws, there's a statutory charge at 
the Federal level that we advocate on behalf of older Americans 
at every level, that the Assistant Secretary advocate, that the 
state directors advocate, and that the AAAs advocate, and this 
is not the same thing as lobbying. It's about giving voice to 
the concerns of the people that we serve. We are charged with 
that responsibility and proud of that and we must continue, I 
think, to be advocates.
    Title III is where we serve most of the programs. It's 
where the home- and community-based services are, and where the 
nutrition programs are. We heard strongly about the need for 
two things: innovation and flexibility.
    I heard a lot of input about nutrition, about whether or 
not we should consider combining congregate and home-delivered 
meals into one category, so that the States can be more 
attentive to the needs of their local communities and be more 
innovative with nutrition programs. We heard a lot of testimony 
from States about the need to be flexible with the other 
services, as well, so that they can meet the specific needs of 
individuals.
    We heard also about the importance of our network in terms 
of being a single point of entrance, a single point of 
information, both through the interagencies and also through 
the aging and disability resource centers, which are a joint 
program between the Administration on Aging and the Centers for 
Medicare and Medicaid Services. So, as we move forward and look 
at what we can do, those will be the core things that we move 
upon.
    We need to have a broader range of evidence-based 
interventions. We are committed at AOA to evidence-based 
programming, which means that if we are going to provide 
services, we must show health outcomes. We need to continue to 
support various types of kinship care for caregivers because 
with all kinds of families supporting each other, the family 
definition needs to be flexible and we certainly have 
grandparents raising grandchildren.
    Then because I have driven from Denver to Kansas more than 
once, I am interested in and concerned, as you are, with rural 
issues and our inability to reach seniors in every location, 
both rural and frontier. We have an Older Workers Program in 
the Older Americans Act that is administered by the Department 
of Labor. I had a joint webinar with the Department of Labor to 
take input on this program.
    If you have an interest as you move forward to take 
testimony on Title V, we're quite willing to work with you to 
make sure that our colleagues at the Department of Labor get 
that input from you, as well.
    Finally, it was clear in my listening sessions about our 
need to focus on elder rights, where we have a new opportunity. 
Title VII of the Older Americans Act has always embodied elder 
rights, elder justice, and the opportunity to address elder 
abuse, as well as the long-term care Ombudsman Programs.
    This is where we fund legal services and other 
opportunities. Since Congress has now passed with health reform 
the Elder Justice Act, we are looking at how we can best marry 
these programs together, making sure that the Older Americans 
Act reauthorization picks up the very best of the Elder Justice 
Act so we can establish integrated services as we move forward. 
It's a wonderful time to be doing this particular work because 
we have so many knowledgeable people. This network will work 
with you and provide you with as much information as you want 
because they've been paying attention to both the 
reauthorization and health reform as it's been passed.
    So it's wonderful to be here with you today. We look 
forward to collaborating. I can come see you at a closer venue, 
if you need more engagement in D.C., and quite willing to come 
to Colorado. My sister lives here and I've always had as many 
family members living in Denver or the Colorado area as I have 
in Kansas. So I'll come visit with you in Colorado or 
Washington or wherever I can to help you do what you need to do 
and what we need to do as a nation to really support seniors as 
they age.
    Thank you.
    Senator Udall. OK. Thank you, Secretary Greenlee. You were 
better prepared and talked into the mike which I didn't do, so 
I hope you all can hear me better at this point.
    Thank you for that both thorough and very succinct outline 
of both the successes and the opportunities in the future with 
OAA.
    I would also thank the Secretary for her acknowledging that 
at one point the State of Colorado was part of the territory of 
Kansas and there are Kansans who want us back but the Secretary 
didn't make that request.
    Ms. Greenlee. No. [Laughter.]
    Senator Udall. Is the Chieftain here?
    Ms. Greenlee. I'm going to take the Fifth Amendment.
    Senator Udall. Well, let me start and we have, oh, about 10 
minutes or so here for some questions.
    One of the current themes is the question of rural care and 
we have a lot of rural in Colorado.
    Ms. Greenlee. Yes, yes.
    Senator Udall. The Plains, even along the front range, 
there are a lot of small wonderful little communities and a 
bunch of rural communities, and, of course, you get into the 
mountains and the plateau and Mesa Canyon Country of Western 
Colorado.
    What have you heard in your listening sessions about the 
best ways to get evidence-based treatments and approaches and 
prevention programs into these rural communities? Could you 
expound on that a bit?
    Ms. Greenlee. Even though there are issues in rural areas, 
we need to keep in mind there are people, providers and systems 
there. It's imperative to be successful in delivering services 
to seniors that those systems work together and that we be able 
to integrate service delivery on the ground and take advantage 
of what's there.
    I certainly hear testimony about the opportunities for 
technology, for telemedicine and for distance learning. This 
topic came up for me when I was the Secretary of Aging in 
Kansas, as well, and since I came to Washington.
    I think we need to pursue that, but I think we also have to 
look at the unique nature of the rural region and do targeted 
outreach. The Older Americans Act has specific categories that 
we must reach. While it's not an entitlement, there are targets 
that we have to reach and isolation and underserved areas are 
one of those targets.
    What came up when I was hearing testimony was whether or 
not we needed to add an additional category for frontier. There 
are rural areas and frontier areas and I certainly know the 
difference, but that's not necessarily the case. There are 
people living in very, very remote circumstances.
    Senator Udall. Frontier?
    Ms. Greenlee. Frontier, very, very remote, and if you go 
north of here, if you go to the Northern Plains, Wyoming, 
Montana, you can really think about people who are hundreds of 
miles from these services, and what is the best way that we can 
target those individuals?
    As you know, time and distance are expensive and one of the 
challenges for us moving forward is to figure out whether or 
not the funding that we provide should take into consideration 
the cost of providing services to the frontier.
    Our urban friends will talk about their density which also 
creates issues for them. So I think we just have to look at 
what the best way is to be specific and targeted and realize 
there are different needs there. As we know and I certainly 
know this as a Kansan, there are rural areas where the average 
age is much higher in their counties than in urban areas, that 
we have younger people who moved away from rural parts and from 
the country and those seniors can be particularly vulnerable.
    Senator Udall. One of the interesting developments, 
although it's not reached the level of large-scale development, 
is some seniors moving to towns east of Denver because they're 
safe communities, the cost of housing is reasonable, it's much 
easier for their children to visit them with their 
grandchildren in these places, traveling to the east an hour or 
two versus an hour to the mountains or to the west, and, 
interestingly, there may be draw into some of these smaller and 
still interesting communities for seniors and the baby-boomer 
generation, particularly as we also look at our assets and 
income streams we have and need to find areas where the cost of 
living is something we need. I just offer that as an 
observation.
    Ms. Greenlee. Senator, if I didn't mention transportation 
specifically, Title III(b), the supportive services that we 
have, a large percentage of that goes to fund transportation. 
The issue of transporting seniors to doctors' appointments and 
to their families, is huge and growing. It is much broader than 
something that can be resolved through the Older Americans Act 
alone.
    Transportation is not just a rural, issue but also an urban 
issue. It will continue to be a theme as we try to address 
increasing numbers of seniors. If the nation's goal is to help 
seniors live at home, then their engagement in their 
communities will be dependent upon a transportation system that 
probably needs to also be innovative and involved. We all need, 
I think, to have good partners in transportation who can help 
us figure that out.
    Senator Udall. Another item for Secretary Lahood----
    Ms. Greenlee. Yes, it's huge with regard to transportation.
    Senator Udall [continuing]. For the Department of 
Transportation, as well.
    You mentioned again the need for innovation----
    Ms. Greenlee. Yes.
    Senator Udall [continuing]. In your listening sessions, 
could you share a couple of ideas when it comes to nutrition, 
wellness, and prevention that you hadn't thought of or you 
hadn't heard about but that popped out, as you talked about, 
the people on the ground being creative?
    Ms. Greenlee. There is an outdated image of seniors that 
they go to a congregate meal site, have a meal and go home. 
That model of senior engagement and senior centers is 
disappearing, fortunately, and I have been----
    Senator Udall. Did you say fortunately?
    Ms. Greenlee. Fortunately, I have had the opportunity--and 
Paul Downey is going to testify from San Diego so I just 
recognize San Diego in particular for their efforts.
    I had the opportunity to be at some local senior centers 
where their ability to pull multiple funding streams together 
and their ability to provide comprehensive support to centers 
is astonishing. The ability to not just provide a meal but to 
do wellness interventions and support, to provide programming 
for diverse communities, to be the 2-1-1 system, the 
information referral system, in San Diego.
    There are some wonderful places where senior centers in 
particular and area agencies have been able to figure out how 
to bring services to the location so that as a senior comes 
they can be supported in their health, their social engagement, 
and in their meals.
    I'm quite happy and willing to partner with the National 
Association of Area Agencies on Aging to promote their best 
practices. There are simply phenomenal places in this country 
providing very unique services.
    I was at a senior center in New York City and was impressed 
by what they had done in terms of working with other 
populations. They were the only senior center I've been to 
where the volunteers providing meals were teenagers with 
developmental disabilities, and this was a way to provide 
different and unique programming.
    I've been to a location in Washington where there are adult 
day services and services for children with disabilities, as 
well as children without disabilities all in the same location. 
That's where the innovation is taking place and as much as I 
love State government, have come from State government, the 
innovation of this network needs to be supported by us at the 
State and Federal level. It happens on the ground and it's 
quite exciting.
    Senator Udall. Most great ideas happen on the ground.
    Ms. Greenlee. We need to support it.
    Senator Udall. It sounds like, as well, these organizations 
and these individuals are finding ways to stretch dollars in 
particularly tough economic times.
    Ms. Greenlee. Yes.
    Senator Udall. There's always a need for additional 
resources, but you haven't mentioned dollars once which is 
impressive.
    Ms. Greenlee. I only mentioned them when I talked about 
Title VI. I was very clear in the listening sessions that these 
are two different initiatives. My charge and my instruction to 
the network is let's look at the law and figure out what's in 
the way, what we need to improve on, and then we need to return 
to the conversation on appropriations and we must do that.
    Senator Udall. Sure. I mentioned in my remarks that the 
baby-boom generation is unique and I wanted you to expound a 
little bit on what you learned in your listening sessions and I 
do that, while apologizing to some of the younger Americans who 
are here who are sick of hearing about the baby-boomers, I'm 
sure, but we are a large group.
    At some point we'll be gone and you'll have America all to 
yourselves, but in the meantime we are quite a cohort. We have 
had our own set of life experiences, parents of those who were 
the Greatest Generation, lived through the 1960's and 1970's 
and now into the 21st Century.
    What sorts of insights have you generated as to the unique 
perspective and needs and expectations of the baby-boomer 
generation?
    Ms. Greenlee. In doing this work, I have a particular 
phrase that I really find disdainful. I don't like the phrase 
``silver tsunami.'' I do not see the----
    Senator Udall. What was the phrase?
    Ms. Greenlee. Silver tsunami.
    Senator Udall. Silver tsunami.
    Ms. Greenlee. I do not like the phrase and it's coined from 
the sense that the resources that we will need will be this 
huge burden that will engulf us as we address the needs of the 
baby-boomers. I think that is both limited and sad to have that 
approach.
    More and more, as I talk to people and I'm on the young end 
of the baby-boom generation, I think what will happen is that 
the boomer generation will completely define or redefine what 
aging is. Many authors and theorists in the field of aging who 
talk about a third chapter, that is we have increased longevity 
and a ``sweet spot'' of the healthy years have been pushed out 
to a later date. We still will have decline in old age, but 
people in the 50 to 75 age range which is where the boomers now 
fall, have more social capital, have more innovation, have more 
creativity and opportunity to give back to this country than 
ever before. So this is not just a drain in terms of what are 
we going to do when they're 90, but what can we do to harness 
the creativity and energy of boomers right now? I think that 
boomers themselves will redefine for us what they need to stay 
in the community. They will help us figure out transportation 
and other issues that are very hard.
    Retirement is a phrase I don't even understand anymore and 
certainly boomers don't know what to call themselves, as well. 
So they'll probably always be boomers because they don't like 
the term senior. I do think that this cohort will change the 
way that we provide services for the better and that we will 
have better nursing home care. We will have more persons in our 
care in every setting. We will be able to find the best way to 
provide the lightest touch, the least expensive support, and 
then progress to more supports as someone becomes more frail 
and disabled.
    I think it's a time of hope and opportunity for boomers and 
it's a very, very exciting time to be in the field of aging.
    Senator Udall. What you just said is illustrative of why 
you're such an important part of this effort and why you were 
chosen----
    Ms. Greenlee. Thank you.
    Senator Udall [continuing]. It's very inspiring to hear you 
talk on this because I've actually got goose bumps.
    Ms. Greenlee. Thank you.
    Senator Udall. I think that you're right, that the baby-
boomer generation has an opportunity to give back to a very 
rich back nine of life, if you will,----
    Ms. Greenlee. Yes, yes.
    Senator Udall [continuing]. If you're a golfer or however 
way you want to characterize what's in front of us here.
    There's also an opportunity to be of public service, 
dedicate yourself to causes greater than your own self 
interests, and I think that motivates many, many people as they 
age, as they get a little longer sense of history in their own 
lifespans. So that's the opportunity that is in front of us.
    I'm tempted to end there, but I want to ask you one last 
question----
    Ms. Greenlee. Sure.
    Senator Udall [continuing]. Which is more specific.
    Ms. Greenlee. Sure.
    Senator Udall. I want to get on my question specifically. 
You talked about the recently passed health reform law----
    Ms. Greenlee. Yes.
    Senator Udall [continuing]. Boy, you missed some great town 
meetings here a year ago.
    Ms. Greenlee. Oh, yes.
    Senator Udall. I had a big one in Durango that went very 
well, given there were only 18 state troopers, sheriff deputies 
and multiple police there to protect me and everybody else from 
themselves.
    But setting that aside, when you mentioned the recently 
passed healthcare reform law and how the aging network will be 
called upon to complement and support and enhance the coming 
improvements to the healthcare delivery, much as it did during 
the changes to the Medicare Prescription Drug Benefit, however 
this time the policy's on a much larger scale, can you speak a 
little more on how you envision the aging network playing such 
a role, both via the services and the infrastructure that it 
provides?
    Ms. Greenlee. You referenced Medicare Part D, so in terms 
of education and information?
    Senator Udall. Yes, yes.
    Ms. Greenlee. I'm going to broaden my answer a little bit 
beyond your question.
    Senator Udall. Sure.
    Ms. Greenlee. I think the greatest opportunity for this 
network in health reform is what I call the gray area between 
the medical model and the social model, between opportunity to 
look holistically at an individual and say what do you need.
    In a conversation about hospital discharge and readmission 
that was so much a part of the conversation----
    Senator Udall. Oh, sure, yes.
    Ms. Greenlee [continuing]. Of health reform, some of that 
conversation was about payment systems for hospitals, but many 
of us who work with seniors understood is that it's also about 
what happens when the person returns home. What we find are 
tremendous opportunities that are funded in health reform to 
look for innovative ways to work on care transition, care 
coordination, medical homes, that this network has a value to 
bring to the table.
    There are some challenges in doing that. We didn't build a 
medical system and a social system that have the same database. 
So what we need to do is go back to the innovative practices in 
our field and say, look, here is the most holistic integrated 
model we can have in the community so that we have the best of 
the medical system, the best of the community supports, a 
recognition of the role of the senior and their caregiver, and 
we come up with all of the right combinations so someone is 
healthy and has a good quality of life and has good health. 
Those, I think, are the greatest opportunities.
    With regard to education, I think the greatest role that 
our network can have is to provide some basic information, to 
overcome some of the misinformation about health reform, 
Medicare and what's going to happen in the new prevention 
benefits. We can continue to assist seniors in many of the ways 
by providing information that addresses that we have been to 
overcome some of their concerns.
    But I think the network's stake in this case is about the 
opportunity to provide innovation, so that we can expand 
community services that are more integrated with our health 
care systems. I think that is the deliverable that the aging 
network has an opportunity to provide.
    I also think that the Class Act that was passed in health 
reform is an important program, the Class Act is a new national 
voluntary long-term care insurance program included as a part 
of health reform. In a nutshell, workers can volunteer to park 
some of their own money, kind of like in a 401(k), in an 
account to help support their own independence when they become 
disabled.
    It'll take roughly 10 years before anyone can receive those 
benefits, but at some point the Class Act represents an 
opportunity to find different kinds of funding so that seniors 
can have supplemental support to stay independent and that will 
also impact this network.
    We have capacity opportunities to grow so that we can meet 
the needs of seniors. This growing number of baby-boomers 
provides phenomenal opportunities for the network.
    Senator Udall. So you referenced the EMR and I was 
admonished by my great staff here to not let you use lots of 
acronyms.
    Ms. Greenlee. Which one did I use?
    Senator Udall. Yet I've used them here. EMR, electronic 
medical records, which is an important part of the Healthcare 
Reform Act,----
    Ms. Greenlee. Yes.
    Senator Udall [continuing]. I think you were saying that 
could be an important part, access to that information, maybe 
even expanding it to the OAA application and programs here 
moving forward.
    Ms. Greenlee. Yes. When you think about the life of a 
senior and their transitions, especially when they need support 
they go from home to the hospital to skilled rehab and maybe 
some community services. The ability to translate and transport 
data and information across those settings is critical to 
having good quality outcomes. So as we look at electronic 
medical records, the social support system must eventually also 
be added to that system so that the information is complete 
about any one individual and their status.
    Senator Udall. That would include basics like where you 
live, your transportation options.
    Ms. Greenlee. Whether you have a caregiver because your 
caregiver may be the one who's helping with your medications.
    Senator Udall. Whether that caregiver's a family member. 
Certainly there could be privacy concerns, but I think there's 
obviously things that add value to it and utilizes the 
technology that has been developed in the last 20 years in the 
country, one of our strengths, by the way, in the 
infrastructure that would apply.
    I could listen to you, as I'm sure everybody here, for 
quite a bit longer. I do think we've reached the point where 
we----
    Ms. Greenlee. Thank you.
    Senator Udall [continuing]. Need to take a short break. 
Once again, I can understand why Secretary Sebelius trusts you, 
leans on you, and it's obvious to me you're also very much 
involved in implementing the Affordable Care Act, and thank you 
for that good work.
    I know history, I'm going to editorialize here, history 
will show what the Congress did over this last year in 
broadening coverage, including every American, in our 
healthcare system with the intent of maintaining quality and 
driving down costs was the right thing to do, and I look 
forward to working with you to implement that, as well.
    Ms. Greenlee. Thank you very much. Thank you, Senator.
    [The prepared statement of Ms. Greenlee follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Udall. Thank you for being here, Secretary.
    Ms. Greenlee. Thank the rest of you.
    Senator Udall. We'll take a 10-minute break and in the 
meantime, I know Jake Swanton is here. Everybody should know, 
make sure that the next group of panelists take their seats, 
and then I'll introduce the next group of panelists in about 10 
minutes and we look forward to your testimony, as well.
    Thank you very much.
    [Recess.]
    Senator Udall. The Special Committee on Aging will come 
back to order. Although I didn't recess formally before, I'll 
call us back in to order.
    I understand my mike is not as loud as Assistant Secretary 
Greenlee's was. So I'll try and speak into it so everybody can 
hear me a little better.
    I want to ask the second panel to come up and take their 
seats and when they're seated, I'll then make a series of quick 
introductions and then we'll hear from them. So if you all 
would come up and join us?
    All right. I want to thank this group for joining me here 
today, as I have before, and I know that Assistant Secretary 
Greenlee's remarks gave greater understanding of what the 
Administration's goals are for improving senior services and I 
hope they gave everybody else here a great backdrop for our 
next panel. Thanks again to the Assistant Secretary.
    Our next panel is made up of local and national leaders on 
aging services and policy. They have bios in your program, but 
I do want to thank and acknowledge them beginning our second 
panel and ask them to join me up front as they've already done.
    Steve Nawrocki is the executive director of the Senior 
Resource Development Agency here in Pueblo. Steve has served 
here in Pueblo since 1978 and will be able to give us a greater 
perspective on the needs and the work being done here in 
Pueblo. So thank you, Steve, for being here.
    Paul Downey is the president of the National Association of 
Nutrition and Aging Services Programs and, as I've already 
mentioned, traveled all the way from Southern California to be 
with us here today. He also heads up the very successful 
programs of senior community centers in San Diego and will be 
able, I believe, to add some additional input on how to 
replicate the successes across the country.
    Guy Dutra-Silveira is currently the director of the Pikes 
Peak Area Council of Governments, Area Agency on Aging. I know 
that's a mouthful, but it's important work, and in addition to 
being an impressive musician, I understand Guy's policy 
perspective will help guide our discussion on our region's 
needs and how the Older Americans Act can deliver for Colorado, 
including our veterans, given the importance presence they have 
in the Springs.
    Dace Carver Kramer is the special consultant to the 
Northwest Colorado Visiting Nurses Association. As many of you 
know, the VNAs across the country are often the tip of the 
spear, if you will, on aging policy. Her 40+ years of work in 
the legislative and nonprofit environments will be a great 
addition to our discussion, especially her work in rural areas.
    I want to thank each of our panelists once again for being 
here. We're going to begin with opening remarks. I hope you can 
keep them to 5 minutes, and then we will begin discussion and 
hopefully I want to get to some questions from our attendees.
    I mentioned earlier acronyms and numerical titles of the 
Older Americans Act, they may not mean a lot to our guests 
here. So if you have a little voice in the back of your head 
for the benefit of the people here, please explain when you 
mention a title, whatever it may be, or the acronyms, it would 
be helpful.
    So thank you, and we'll turn it to Steve. The floor is 
yours.

 STATEMENT OF STEPHEN G. NAWROCKI, EXECUTIVE DIRECTOR, SENIOR 
            RESOURCES DEVELOPMENT AGENCY, PUEBLO, CO

    Mr. Nawrocki. Well, thank you, Senator, and also it's a 
real honor to be able to here today and to be asked to be part 
of this panel and I would certainly like to welcome Assistant 
Secretary Greenlee to Pueblo, CO, not only as a director of a 
nonprofit agency that serves seniors and has a lot of Older 
American Act programs but also as a city councilman, and I 
would like to also welcome the rest of the distinguished panel.
    I feel a little bit humble here. I'm just a little direct 
service provider and all of you have all these great things 
that you've been involved with. So it's a real privilege to be 
a part of it and also today is the kickoff of the State Fair. 
So we're checking to see if you've got your jeans and cowboy 
boots on. I see the Senator has his boots on, so that's good.
    Senator Udall. I've got a pair of jeans to change into 
later. How's that?
    Mr. Nawrocki. I did have an opportunity to put together 
with some of my colleagues from the Senior Resource Development 
Agency, and I'll refer to it as SRDA, just to keep in line with 
Jake, that we met--when he informed me that I had to submit 
some kind of a narrative that would be put into the record, I 
got together with our colleagues and we did some of that and 
I'm not necessarily going to talk about anything that we 
submitted for the record, but he did ask me to talk a little 
bit about the Pueblo area because it is unique in terms of it 
is urban and rural, even though the northern part of the state 
still considers Pueblo rural.
    We are a city of about a 105,000. We have an art center and 
we have a lot of things going on in our community. The county 
is about a 155,000. It's a very diverse county, and I think 
that's one of the things that makes us such a great place to 
live.
    Almost 19 percent of our population is 60 years of age or 
older. That's quite a high percentage of seniors living in our 
county. The state average is somewhere in the area of 12 
percent to 13 percent. I think the national average is 
somewhere in the area of 15 percent. So we do have an aging 
population in Pueblo. People seniors choose to stay here and 
not leave our area and I think a lot of it has to do with the 
cost of living and the climate and just being a great place to 
live and the traditions of our community.
    What I'm so excited about is listening to Assistant 
Secretary talk about what she sees as kind of the future in 
terms of senior services, a focal point, a place where there is 
like one-stop shopping, and I know our colleague here from San 
Diego, after reading the information, that's exactly what's 
happening in your community, except you really are a large 
community compared to our community.
    But we have been doing this in this community for over 30 
years. We're celebrating next year our 40th Anniversary for the 
Senior Resource Development Agency. We have over 12 different 
types of services. Most all of them are reflective of meeting 
our mission which is keeping seniors living in their homes as 
long as possible and being independent and being productive and 
having a great quality of life.
    We are the focal point for senior services within Pueblo 
County. We not only serve Pueblo County but we also serve 11 
other rural counties. We also are the 2-1-1 for Southeastern 
Colorado and we also are the provider of Lifeline which is the 
emergency response systems from the Kansas border to New Mexico 
to the Four Corners area up to Colorado Springs. We even have 
an office in Colorado Springs. We have almost 2,500 
subscribers.
    It's a for-profit component of our agency and I think one 
of the things that's unique about our agency is that we have 
nonprofit/for-profit together and we take that money and we 
pump it back into our agency to help the programs that need to 
be subsidized on a regular basis and I think that's a key 
component about being able to provide a focal point.
    It takes a blending of funding and just to be able to 
provide nutrition services, transportation, in home services, 
under the Older Americans Act. We just don't get the money and 
we provide it. We have to have support coming from the local 
area. The City and the County of Pueblo historically for over 
30 years has been providing funding for the senior support 
system in our community somewhere to the tune of about $270,000 
some a year is what they been providing recently to help us 
match and bring on other types of services for seniors in our 
community.
    So we're very proud that we have that kind of local 
community support and I think it's paramount in order for us to 
be able to provide the array of services that we do.
    Also within our community, it's again a very diverse 
community. Probably somewhere 2,000, 1910 Census, we're 
probably going to see that the Hispanic population is getting 
closer to 50 percent of our population within our county. 
Already within our public school system it's over 50 percent 
and that's reflected in the senior population. So there are 
those types of ethnic considerations that we have to take 
into--Pueblo used to be called the Little Chicago, Little 
Pittsburgh because of the steel mill and the diversity of 
Europeans that came to this community and which we are very 
proud of that heritage, plus of the Hispanic heritage that have 
contributed to our culture.
    All those things have to be taken into consideration in 
terms of providing services to the seniors in our community.
    The idea that we are talking about a blend of rural and 
urban, we are the only ones that provide transportation outside 
of the city of Pueblo. There is no other public transportation. 
A lot of seniors, as you're well aware, are aging in place 
today, so that they're living out in the mountain areas. 
They're not moving into town. They're aging in place there and 
once they lose their ability to drive, as we all know, in this 
part of the country, when you can't drive your car that 
directly has an adverse impact on your independence.
    So we feel very fortunate that we're able to provide rural 
transportation. We can't only do that with Title III money. We 
also have a blend of Colorado Department of Transportation 
money. By blending that funding with local funding from the 
city and county, we're able to serve our urban area, plus our 
rural area, and keep it as cost-effective as possible.
    If one of those programs had to stand alone, there's no 
way. You can only imagine what it costs to drive 40 miles one 
way to pick up somebody, take them back in four trips, how 
expensive that would be if you're not having several different 
blended funding sources to help subsidize that and taking 
different types of passengers at the same time. So that's an 
example for rural transportation. It really does need to be, I 
think, a blend of funding and a blend of who you're 
transporting.
    The Meals on Wheels Program, we are so proud of that. For 
over 30 years we've been serving, much like San Diego, 7 days a 
week, two meals a day, a hot and cold meal, delivered by 
volunteers, primarily it's confined to the urban area. The 
rural areas we provide frozen meals. We would like to be able 
to do prepared meals from our kitchen but just haven't been 
able to figure out how to keep the temperature requirements 
because, as you're well aware, within our Older Americans Act 
program we watch out for those seniors. Nobody is more 
protected than seniors when it comes to nutrition and I think 
that's a good thing, but we are very proud of that and some 
days we serve probably close to a thousand meals a day within 
our community.
    On the weekends, we had to cut back. So now we only provide 
meals to those individuals that are in the most need. Our 
programs have never been there to supplant the care that are 
given by family members and so when they have the ability to 
have family members take care of them, that's what we would 
like to see happen, but for those that need it, there is no 
senior that should go hungry within our county and we're very 
proud of that.
    In 30 years, we have never missed a day, not even in the 
big storm of 1997, we didn't skip a beat. We were able to 
deliver our meals, thanks to our volunteers.
    I think this gives you kind of a snapshot of not only the 
diversity of services, transportation. We have information 
referral. We have the new ARCH Program in Colorado which, 
Senator, I better read it off. It's Adult Resources for Care 
and Health. We blend that together. It's case management and 
information referral.
    What I like about that program, and plus we combine it with 
2-1-1, is that it's a gateway for baby-boomers to find out how 
to access the aging network for their aging family members and 
so really this is the first opportunity for all of us that are 
in denial that we're ever going to get old which I think is a 
real characteristic of baby-boomers, that this is a chance.
    I mean, it's not unusual for me to be out in a restaurant 
within our community and somebody comes up to me and says, 
Steve, my mom just had a heart attack, what do I do, where do I 
go, and this is a person that's 60 years old and doesn't have 
any idea about the resources.
    So I think these programs, like ARCH and the 2-1-1, as far 
as pure information referral, those are a must in terms of 
being able to have baby-boomers become more familiar with the 
aging network.
    We have an array of other services. We also provide 
housing, 202 Housing Project that we have within our community. 
So again, I was so happy to hear the Assistant Secretary talk 
about this in terms of being a great delivery system to reach 
out to seniors and also look forward to hearing from my 
colleague from San Diego.
    Thank you.
    [The prepared statement of Mr. Nawrocki follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Senator Udall. Steve, thank you, and I would note that the 
Assistant Secretary was generous. She never did mention the D 
word, Denial, but I was ready for it to be mentioned at some 
point here during the discussion.
    We'll turn to Paul and welcome again. Thank you for making 
the journey from Southern California.

   STATEMENT OF PAUL DOWNEY, PRESIDENT, CALIFORNIA NUTRITION 
COALITION, STEERING COMMITTEE MEMBER, CALIFORNIA ELDER ECONOMIC 
                      STANDARD INITIATIVE

    Mr. Downey. Great. Well, thank you very much, Senator. I 
guess I would note, if you were in San Diego visiting the fair, 
you would change into shorts and flip-flops. So we're a bit 
different than here in Colorado.
    But it is, Senator, my pleasure to testify today at this 
important hearing and I commend your interest in wanting to 
improve the Older Americans Act, particularly the Nutrition 
Program.
    It's also a pleasure to be here again with our outstanding 
Assistant Secretary for Aging Kathy Greenlee. I have a lot of 
admiration for what she's done already in this position.
    As you noted, I come wearing two hats today. I'm president 
of the National Association of Nutrition and Aging Services 
Programs, otherwise known as NANASP. I'm also president and CEO 
of Senior Community Centers of San Diego. I have 15 years in 
the Older Americans Act Aging Network.
    I know you have a particular interest in programs and 
activities which promote wellness and foster disease prevention 
among older Americans and as the Secretary alluded to that's 
precisely what we're doing in San Diego.
    Senior Community Centers serves about 1,700 meals a day, 
365 days a year, to predominantly low-income seniors, many of 
whom live on less than $200 a month after paying their rent.
    The link between nutritious meals, health, independence, 
and, frankly, the ability to simply survive is undeniable. This 
year in the unique partnership with visionary philanthropists, 
private and public partnerships, and collaborations with more 
than 25 different community agencies, we opened the Gary and 
Mary West Senior Wellness Center.
    We firmly believe that it represents a model that can be 
replicated throughout the rest of the country in both rural and 
in urban settings. Our congregate meal numbers at the Gary and 
Mary West Senior Wellness Centers have increased every month 
since we opened in April to almost 700 a day. Nutrition is the 
core service around which we provide case management, lifelong 
learning and civic engagement.
    We then leverage our community partnerships to provide an 
array of additional services at no cost to us and to the 
clients. Our partners include Sharp Healthcare, which is the 
largest healthcare provider in San Diego County, and the 
College of Health and Human Services at San Diego State 
University.
    We have about 30 SDS use students representing five 
different disciplines, social work, gerontology, nursing, 
public health, and speech and language, and their professors 
who are out-stationed at the wellness center. Our seniors 
receive more services, students learn about working with the 
elderly and the professors have research opportunities.
    This is what the Older American Act dollars were intended 
to do, to leverage other resources beyond merely providing a 
meal at locations where seniors gather each day.
    The next reauthorization must strengthen that ability at 
the local level to do this kind of leveraging. This can be 
accomplished by letting those in the aging network closest to 
the senior determine what is best in each of our communities, 
and let me be more specific.
    The Nutrition Program must continue its requirement that 
meals need to meet the recommended daily allowance, RDA, 
especially since 73 percent of the participants are at high 
nutritional risk. Sixty-two percent of our home-bound seniors 
receive half or more of their daily food intake from the meal.
    However, how this is achieved needs more flexibility. We 
anticipate a doubling of our minority elderly population in 
less than 20 years. To keep nutrition programs relevant to 
them, we must offer food choices that reflect greater cultural 
sensitivity. We have boomers in our programs and more will 
follow. They need different menu options and approaches to 
serving meals to keep the programs relevant.
    One modification that we could make to benefit all the 
participants is to allow greater use of fresh foods and 
vegetables. We have too many obstacles and too many places now 
keeping that from happening.
    As you can imagine, the interpretation of what can be 
accepted via donation varies significantly from state to state 
and even from county to county. I encountered this firsthand 
recently when I tried to accept a reoccurring donation of fresh 
fish from a sports fishing consortium. State and local 
regulations, which the Older Americans Act says that we have to 
comply with, created such onerous impediments that we had to 
decline the fish which was worth several thousand dollars for 
each donation and they were going to do it every single month. 
So a sizable amount of money that we basically had to decline.
    We must have a system where laws at all levels of 
government work together consistently and fairly to encourage 
donations of fresh food and vegetables.
    My NANASP views parallel my local views. We support greater 
flexibility at the local level on whether more funds are 
provided to congregate or to home-delivered meals.
    For nutrition programs to deliver the outcomes they do, 
they must be adequately funded but that does not always mean 
more money. In this case, it is about making sure that dollars 
intended for nutrition stay in nutrition. Today, nearly $40 
million in funds from the congregate nutrition program go into 
non-nutrition programs within the Older Americans Act.
    There may have been a need for that before but we don't 
believe there still is when we have a rising demand in our 
programs. Those of us at NANASP truly appreciate your support 
of the 2009 Stimulus Bill which provided an urgently needed 
$100 million in funds for nutrition programs.
    Our programs faced rising food and energy costs and loss of 
volunteers. These funds helped avert disaster.
    But the need remains and we need to see funding levels for 
fiscal year 2011 as close to this level as possible.
    NANASP also supports strengthening the Disease Prevention 
and Health Promotion Program in the Older Americans Act going 
forward, and we're calling on Congress to either transfer this 
program outright into the Nutrition Program or set aside 
funding for evidence-based nutrition programs which will help 
in prevention and promotion.
    Finally, in the special recognition to our rural seniors, 
funding for transportation services has to be--we have to 
bolster funding because they are essential to nutrition 
programs and all of the wrap-around services.
    NANASP has enjoyed working with the Administration on Aging 
in the early stages of the reauthorization process, working 
with Assistant Secretary, and looks forward to working 
especially with you, Senator Udall, and your colleagues on the 
Special Committee on Aging to achieve a successful, innovative, 
and forward-looking Older Americans Act.
    Thank you.
    [The prepared statement of Mr. Downey follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Senator Udall. Thank you, Paul, and I'll turn now to Guy 
Dutra.
    For Paul's benefit, I'm sure everybody else in the audience 
would understand this reference I'm going to make, that we have 
a member of the Colorado Springs community and Pueblo is always 
a nice event and there tends to be a bit of a sibling rivalry 
between Pueblo and Colorado Springs, but any time we can join 
these two communities, wonderful communities, it's important to 
bring them together in this way. It's always helpful.
    So welcome to Pueblo County and we look forward to your 
testimony.

 STATEMENT OF GUY DUTRA-SILVEIRA, DIRECTOR, PIKES AREA COUNCIL 
              OF GOVERNMENTS AREA AGENCY ON AGING

    Mr. Dutra-Silveira. Well, thank you. As a person who has a 
sister who lives here, I get down here a bit and enjoy that 
sibling relationship. [Laughter.]
    So thank you for the opportunity to testify today. I'm here 
not only representing my own agency, the Pikes Peak Area 
Council of Governments Area Agency on Aging but also to some 
extent CAAAA which is the Colorado Association of Area Agencies 
on Aging.
    I want to thank my colleagues for their faith in me in 
giving me this role.
    I want to start by venturing an opinion. The 1965 Older 
Americans Act was a brilliant piece of legislation. It created 
simple support systems, such as Nutrition Programs, 
Transportation Services, In-Home Care, and Information and 
Assistance, that reduced the use of more expensive supports, 
such as Medicare and Medicaid.
    It's crucial that these concepts be brought forward as we 
reauthorize the Older Americans Act so that we can enhance the 
quality of the lives of Older Americans at the same time while 
controlling public costs.
    Every area agency on aging, or I will to refer to them 
AAAs, every one is unique and the region they serve is unique. 
With local control, AAAs are able to tailor-made their services 
to the communities in which they serve. In my area, we have two 
very rural counties and one that has the city of Colorado 
Springs in it. So it's very, very different.
    My urban area, congregate meals are a very good option, but 
in Park and Teller Counties, the home-delivered meal is 
absolutely a must. Fortunately, we have funding for both of 
these options through C1, C2, Titles C1 and C2, and we have 
some ability to transfer funds between these two funding 
sources. We get to do this once a year when we do our funding 
requests and as flexible as this is, it's not flexible enough.
    Let me tell you a brief story. Every year, we have the 
pleasure of the State Agency on Aging coming down and assessing 
our agency. Todd's smiling. That's a good thing. Generally, 
these assessments go pretty well but I want to tell you about 
one occasion on which we were found out of compliance and I'm 
going to ask you to avert your ears, Secretary.
    Ms. Greenlee. Are you going to swear, Todd? [Laughter.]
    Mr. Dutra-Silveira. But what had happened is we had used 
congregate meal funds for a home-delivered meal. How did this 
happen? Well, we have some of our congregate meal sites in low-
income housing units. This helps us target those in the 
greatest need in our community and one day one of the volunteer 
site managers had noticed that one of the regular diners was 
not there. So she inquired and found out that this person was 
ill.
    Well, she had a brilliant idea. She filled a tray, covered 
it and took it upstairs to the person that usually dines there. 
Magically, this congregate meal had now become a home-delivered 
meal and we were paying for it via the wrong funding source.
    So the state unit kindly pointed this out to us and told us 
that we could pay for it using C2 funds instead of C1. Well, to 
do that would have cost hundreds of dollars in new contracts, 
different regulations, different reporting. The volunteer meal 
site coordinator didn't know about different costs of money, 
didn't know about different regulations. She didn't know about 
in-service.
    So the way I think of this is reporting regulations, 
different pots of money, hundreds of dollars, a meal or two to 
an ailing elderly, priceless.
    The moral of the story here is self-evident. Putting funds 
in silos often results in less-effective, less-efficient 
service. This is why the Colorado Association of Area Agencies 
on Aging recommends that local transfer of authority within the 
Older Americans Act, Title III, Subtitles, be enhanced. 
Flexibility is one of our top priorities.
    CAAAA also recommends that the reauthorization of the Act 
include language and funding authorization for aging disability 
and resource centers, also known as ADRCs. The challenges that 
clients in Colorado Springs face, for instance, are quite large 
because the service delivery is spread out amongst many, many 
agencies.
    Fortunately, we had the opportunity to begin a new ADRC and 
using the ADRC, we have been able to closely follow every 
referral we make to disabled persons and elderly persons in our 
community. We've been able to have some case management 
services actually go to the person's home and bring that 
support and knowledge of the system to the client in a very 
convenient and very real way.
    Also, data-sharing has begun between agencies. So a person 
can enter the system at one place and have their information 
shared with another and their history can be looked at between 
agencies. It's not a complete project by any means but it's 
underway.
    There's also a new ADRC here in Pueblo, as Steve mentioned. 
It's called the ARCH Project. In Colorado, we always have to 
rename everything. So the Adult Resources for Care and Health 
is Colorado's version of the ADRC, and once again area agencies 
on aging stand ready to serve and tailor-make their ADRC or 
their Title III program or whatever it is to their community 
and make it work.
    As we begin to look at the challenges and opportunities in 
the Affordable Care Act, AAAs stand ready to serve. In 
Colorado, we're already engaged in presenting evidence-based 
programs to many of our communities. Last year, Colorado AAAs 
gave over 4,000 individuals evidence-based programs. These 
programs were designed to help people stay healthy so they 
don't have to utilize medical and institutional services and 
they saved a lot of money by doing that.
    Clearly, our AAAs are involved in healthcare in America. My 
recommendation is that funding for these programs that 
currently must compete with our other programs be dedicated and 
that it come from the Affordable Care Act.
    One concern I have as a AAA director has to do with serving 
all of our elders. One of the recent opportunities that has 
come down is something called the Veteran-Directed Home- and 
Community-Based Service Program. This is a program that will 
provide case management to veterans and allow them to make 
choices that would help them stay in their homes, stay 
independent, and not rely on expensive institutional care.
    In my area, I have almost 80,000 veterans, yet I'm 
ineligible for this program because we don't have a veterans' 
hospital. Now this concerns me not only because I want to serve 
our veterans but also because my experience tells me that often 
one opportunity builds upon another. Those areas that have been 
able to institute ADRCs, for example, have had more access to 
funding for such things as the Medicare Improvement for 
Patients and Providers Act, also known as MIPPA.
    I would ask that when we're starting new incentives, that 
we keep in mind those areas that already have less resources. 
They do not have less need. Many of these areas are rural. 
Please keep in mind they need service, too.
    As we look at the reauthorization of the Older Americans 
Act and we encourage healthy living for baby-boomers and 
beyond, AAAs and Title VI programs must be vital partners. 
Their efforts, again tailor-made to their communities and free 
from the influence of special interests, will be part of the 
fabric that brings primary healthcare to all Americans while 
controlling costs and improving the quality of their lives.
    Thank you.
    [The prepared statement of Mr. Dutra-Silveira follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Senator Udall. Thanks, Guy, for that, and I'm generating a 
nice list of questions. I'm sure the audience is, as well. 
We'll now turn to Dace for her testimony.

          STATEMENT OF DACE CARVER KRAMER, AGING WELL

    Ms. Kramer. We've heard a lot this morning about baby-
boomers and I plead guilty, also. I actually 2 weeks ago 
retired from the Northwestern Colorado Visiting Nurse 
Association, but I'm reminded of baby-boomers as a college 
student. We all had a rather immodest view of our ability to 
create change and as I became passionate about one cause or 
another in college, I was not very good at my college studies. 
I didn't actually fail but my grades did go down and as you can 
see from my presence here today, I'm failing at retirement, 
too.
    I'm passionate about aging and about rural areas and I do 
not intend to step away from my representation of an 
organization of which I am extremely proud. The Northwest 
Colorado VNA is the public health agency for a two-county 
region in the northwest corner of the state. Geographically, 
Routt and Moffat Counties comprise an area about the size of 
the state of Connecticut. We have only 50,000 people in our 
two-county region. So when people talk about Pueblo as a rural 
area, I am kind of amused and bemused by that.
    We function as a public health agency but we do--and you'll 
have to forgive me as only 2 weeks apart from this, I cannot 
separate the present tense and the first person from my remarks 
about the VNA and the aging program.
    So I will talk about the VNA first as the public health 
agency which has delivered an integrated system of health 
disease prevention and health promotion for many years to all 
citizens of our region, regardless of their ability to pay.
    We start with pregnant mothers and we provide services to 
women and children, to school health programs, to immunization 
programs, all the way up through and including end-of-life care 
with Northwest Colorado Hospice. So it's a very visionary, very 
dedicated group of people.
    In the last 5 years or so, Sue Birch, who's in our 
audience, our CEO, has dedicated herself to filling many 
serious gaps in the frontier area of our region with 
infrastructure for health promotion. Some of the things that 
have happened in the last 5 years are that the VNA operates a 
federally qualified health center for people who are uninsured 
and underinsured. So we provide primary care services and 
ancillary services to those people.
    We acquired an assisted living center which houses about 19 
people. It is the only one in the region. We recently renovated 
a house in Steamboat Springs area for respite and end-of-life 
care which is an absolute shining star in the Steamboat Springs 
area. We not only provide end-of-life care, respite care for 
caregivers, we have adult day services. We have a support 
program for children in this facility. So there a great many 
infrastructure improvements which have never--we've never had 
in our region and I credit the VNA for that.
    Recently, I retired as the director of the Aging Well 
Program which is really one of the programmatic underpinnings 
of these facilities and services that the VNA provides. It was 
started in 2005. It has focused on the wellness and prevention 
services and programs that we, with the public health mission 
of the VNA, can offer to our seniors.
    We do this by adopting and hiring certified instructors in 
evidence-based fitness activities. We have Arthritis Foundation 
exercise, aquatics, and Tai-Chi, fall prevention programs, such 
as balance, and we have engaged over the entire Western Slope 
in helping to recruit and implement the chronic disease self-
management program which in Colorado has been renamed Healthier 
Living Colorado.
    In our area, we provide that program in English and in 
Spanish and we also provide it for people with diabetes.
    So it's the Healthier Living Diabetes Program in both 
English and Spanish.
    One of the ways we leverage the effect of these programs 
through the VNA is we receive referrals from our primary care 
providers at the federally qualified health center. We identify 
people in need through our community outreach and prevention 
services team, community health educators, patient navigators. 
We partner with our two local hospitals, so their discharge 
planners know that we have wellness and prevention programming 
available to people who are discharged and are transitioning 
back to their homes.
    This is a tremendous challenge in a frontier area. Most of 
our towns are not over 500 to 750 people. The way we manage to 
do it is that we partner with our community resources. Paul has 
talked about the leveraging of community resources. They 
include the hospitals. They include primary care providers. 
They include two community colleges to provide lifelong 
learning opportunities and then we identify social gathering 
places in our local communities which are the visible signs of 
gathering. They could be a coffee shop. It's the American 
Legion Clubhouse in Craig, CO.
    We get partnerships with organizations that have facilities 
where people might logically come. We have no transportation, 
but we find that we have been so successful in integrating the 
services of the VNA, including wellness checkups, foot care, 
and the evidence-based programs that we provide with college 
classes. It might be memoir-writing. It might be something like 
computers.
    The County Extension Service offers classes and lunchtime 
lectures. We bundle all this together and place it in a social 
gathering place. It might be a community center, also, and we 
find that people find their way to our program.
    We have a population in the two-county region of over 60 
that is about--I think it's about 6,000 people and in the last 
4 years, the Aging Well Program has seen 1,400 participants 
over the age of 60 in our programs. We collect data from all 
these people on their personal health and I would like to break 
in a little bit and read you--we did a survey of personal 
health assessment in 2009 and we asked for comments about 
people's perception of their own health, their ability to age 
in place, and I have a couple I'd like to read you that were 
part of our survey.
    ``I'm no longer on oxygen. I have lost 10 pounds and I'm 
stronger. I'm stronger and in better health all around. I feel 
more invigorated and I breathe better. My blood pressure has 
improved. I can do my own yard work and housework now. My 
balance has improved and the numbness in my hands is less 
severe. I feel I can do more physical things in life. I feel 
more positive about aging.''
    These are actual quotes from people who've participated in 
Aging Well Programs.
    We also partner with--I feel like the kid standing outside 
the chain link fence because I have read all of the Older 
Americans Act and I can insert a little personal comment here. 
I was born in the state of Idaho and my--we moved to 
Washington, DC., when I was 5 years old. My father was asked to 
come to Washington as newly elected Senator Frank Church's 
first chief of staff. So I grew up in Washington but for those 
of you who have a little history in your background, you may 
know that Senator Frank Church was one of the founding members 
of the Senate Special Committee on Aging. He really pushed for 
the Older Americans Act that President Johnson signed into law 
because, in Idaho, many of the problems of the very rural and 
frontier areas, many of his constituents faced and he was 
passionate about aging and how to address those issues for his 
constituency.
    So I have a personal connection to this and it's a 
longstanding one. I have great admiration for all of the 
members that sit on this committee and I appreciate the 
opportunity to be here.
    Senator Udall. Dace, nicely done, and that was an important 
historical perspective. I didn't know that particular part of 
Senator Church's very distinguished service to our country. He 
was quite an American.
    Ms. Kramer. Yes, he was. Thank you.
    [The prepared statement of Ms. Kramer follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Senator Udall. Thank you. That is, I know Secretary 
Greenlee notes with interest, too, that part of the idea was 
driven by a man who represented a very rural state, the state 
of Idaho, and he saw the challenges, frankly, that people had 
as they aged in place and whether they were frontier or rural 
or even the few cities or the one city that's in Idaho. I guess 
Boise would be your city.
    Well, with that, thank you for that broad-based testimony 
and for giving us some specific recommendations. I know that 
the Secretary was taking some notes and particularly, Guy, you 
made some specific recommendations.
    Let me ask a couple questions and then those of you in the 
audience, I'll try and limit my questions to 5 minutes and then 
if some of you want to ask questions, I really want to provide 
that opportunity.
    Steve, I want to pick up on something you talked about 
which was the fact that boomers have been eligible for OAA 
services now for about 4 years and, as we all know, many, many 
more of us will be eligible in the next 5 years, and we have 
this dual population dynamic at work and you alluded to this, 
where somebody at the young age of 60 who is concerned about 
their mother, I think it was, and yet that particular 
individual also is now in this cohort of seniors.
    Maybe start with you and your comments on what you're 
seeing, what you're learning from this dual population.
    Mr. Nawrocki. Well, Senator, I was really excited when I 
turned 60 because I was eligible for our programs. I could 
actually eat at a congregate meal site for a suggested donation 
and I am now turning 65. So I'm at the other end of the baby-
boomers.
    But we have within our community, not unlike any other 
community, again we have such a large population of baby-
boomers that are seeing their parents age, for those that are 
lucky enough to still be alive.
    When I first got into the aging services about 20 some 
years ago, the fastest-growing segment of the population was 
85+. Now it's over 90. I mean that's incredible. What does that 
tell you?
    So when we look at the reauthorization of the Older 
Americans Act, 60 is the entrance into those services and 
people are living into their 90's, driving their cars, I mean 
in our area, we have people that are driving in their 90's, 
still getting drivers licenses. We have to start looking a 
little bit differently in terms of that's a lifetime in terms 
of possibility of services, the kind of resources that will be 
available, especially for baby-boomers when there could be 70 
million of us that could be within that age cohort.
    So again, I don't look at myself, even though I'm eligible 
for that congregate meal, I don't quite look at myself as the 
same. I feel quite young. I feel invigorated every day coming 
to work because, well, the people that are 80 and 90 that we're 
serving that are walking and talking and so I don't see that 
I'm in need of these services myself. Of course, my health 
could change. As long as you have your health you have 
everything and those people that I see every day, those are the 
ones that have their health, not the homebound that we're 
serving.
    So that can happen at any age and that can also happen for 
people that are disabled that are under 60 that are not 
eligible for Meals on Wheels unless they live in the senior 
high-rise and that's another area that I think we ought to take 
into consideration in terms of being more flexible and being 
able to serve in the community.
    Those baby-boomers that are under 60 that are disabled, 
especially with all the past wars that we've had and the near 
future, we're going to have a lot of seniors in the future that 
are going to be disabled and I think we ought to take that into 
consideration, too.
    Senator Udall. Any other members of the panel want to 
comment on this dual cohort dynamic where we have parents of 
seniors who are part of the OAA needs?
    Mr. Dutra-Silveira. I've been the director of my agency for 
about 3 years. Prior to that, one of the things I did was enter 
data for our caregiver program and what I noticed was not only 
would you have a 60-year-old taking care of someone that's 85 
or 90 but it was also the 90-year-old woman taking care of her 
husband and the 85-year-old neighbor next door. So caregivers 
who are over 60 are not limited to young ones, they're not 
limited to taking care of one person.
    Ms. Kramer. We've had a philosophy with Aging Well that we 
need to ensnare people at the age of 50 to get them aware of 
the services that they may need in the future. So we have 
partnered with community organizations, like the community 
colleges, like fitness studios, restaurants, to make them aware 
that there is, first of all, marketing potential for this age 
cohort, but also to position these people to be much more aware 
when they become in need of our services, that those services 
exist, and I don't know how successful I can claim we are at 
that, but we do have the local newspaper which has devoted one 
page every week for the last 3 years free of charge to the VNA, 
to the Aging Well page, simply so we can put information that 
will be of use and interest to people of all ages in the senior 
spectrum and that's been a community success, I think.
    Senator Udall. That term is useful, all ages in the senior 
spectrum. That's an important way to put it.
    Paul, let me move to you and open the floor for your 
comments on this topic, if you'd like, but also, given that 
you've come all the way from California, I know we want to pick 
your brain about how we could put the practices that you've 
pioneered into action in rural communities and other parts of 
the country and that's an open-ended question, broad question, 
but we'd like to hear you expound a little bit more on that 
topic.
    Mr. Downey. Sure. Thank you. Well, first of all, I think we 
have to be careful not to pigeonhole any people in the 
spectrum, I think, in the aging spectrum.
    A couple of years ago I sat with my senior staff, all of us 
are baby-boomers, and I said, OK, who here would go to a senior 
center. Not one of us raised our hand. None of us could 
envision ourselves going to the model that Secretary Greenlee 
described, the old model of congregate meal in a church 
basement with nothing else and that was--no, that wasn't 
anything we would do.
    So we tried to develop some things, innovative things that 
would be attractive to baby-boomers and, lo and behold, we 
discovered that not only did it attract baby-boomers but, you 
know, we have 85-year-olds who come in every day to update 
their Facebook pages in our Cyber Cafe, in fact, their e-mails 
and participate in the classes and so we kind of discovered 
that even those of us in the field sometimes have 
misconceptions about what seniors want and that I think it can 
work in both ends.
    I think what we're seeing is, and it was mentioned, the 
idea of leveraging services, is that we should do what we do 
best which, for most of us, is in the meal area, is providing 
meals, maybe providing some case management, but looking to 
partner in what we do primarily. Most of our partners, the 25 
that we have, are not other senior organizations. They're 
healthcare organizations. They're legal organizations. They're 
community colleges. They're other groups that bring things that 
are beneficial and what we do is we give them free space, say 
I'll give you a free office, free space, telephone, with only 
two provisions.
    One is you have to see anybody who walks in the facility, 
you have to see and serve, and, two, you have to be part of an 
interdisciplinary team that we've created, so that we make sure 
we have comprehensive services, and I think that model can work 
very well, even in a rural area, as well, with sort of a hub of 
services that go out to satellite, to smaller satellite sites, 
to reach some of the folks maybe in the rural and frontier 
areas, but by bundling services that are, you know, with good 
transportation, if you have it, where you leverage resources 
and then going out.
    We do that in San Diego. San Diego County, I know, is 
certainly bigger than Rhode Island and probably bigger than a 
couple other states, as well, and we use that exact model 
ourselves, where our wellness center is our hub, but we have 13 
sites spread out and we take those services and a day or two in 
each site, we'll take what we do in this hub out to the 
satellite and I think that can work really effectively because 
I think getting the folks out of their homes is critical 
because of the socialization piece.
    Yes, you can get services to them, but if it's a caregiver 
providing services, they don't benefit from all of the other 
things and if you bundle them where you can, it also helps with 
the transportation issue. If you have a doctor, you know, 
medical, mental health, classes, meals, etcetera, in one 
location, then you can reduce some of those trips you need to 
make.
    Senator Udall. I just think basically we use the term all 
across the senior spectrum. In a sense, we're saying all across 
the community spectrum. I'm reminded, I think there's been an 
ad talking about the human race. It's a play on words in 
athletics and people actually running, but in the end, you want 
to take advantage of community services that are available to 
anybody in need, regardless of age, whether 6 months or 95, and 
that's an intriguing way to think about this.
    I have a lot of questions, but I really want to get some 
audience involvement. So if anybody in the audience wanted to 
stand up and direct a question to the panelists. If you direct 
a question to me, I'm going to ask Jake to answer it, but 
please ask a question and I know if we run out of time, I can 
submit some additional questions for the record.
    Sir, would you identify yourself?
    Mr. Aguilera. My name is Carl Aguilera, and I'm a 
pharmacist. I've got Sam's Club here in town. One of the 
questions that I--my question is before I moved to Pueblo, I 
lived in La Hara and we had some real tough problems in terms 
of retention and recruiting of primary medical, both primary--
of medical providers, both primary and secondary. It was always 
real tough to get doctors in and even PAs, FNPs, and keep them 
there. At any rate that's my question.
    I really don't know that I've heard that addressed per se. 
Anybody got any answers?
    Mr. Nawrocki. That's a loaded question. It so happens he's 
the brother of one of my colleagues on the City Council.
    Well, first of all, within our community, rural/urban, that 
is a regional medical center. In other words, we serve all of 
Southern, as you're well aware, Southern Colorado and Northern 
New Mexico. People come to Pueblo for healthcare.
    I mean, we have community health centers. I mean, it's just 
because of the lifestyle and the investment that people have. I 
mean, this is a struggling issue all over the Nation in terms 
of finding people that are willing to go into the rural areas. 
I know there are incentives at medical schools for kids that 
come from the rural areas to go back into those areas and they 
help pay and defray their costs. There's Rural Medical Service 
Corps.
    But most people come to our city, as you're well aware of, 
and so it's more satellite service and a lot of physicians here 
go out to the rural areas and have a schedule where they meet 
in those communities.
    Ms. Kramer. Senator, may I refer this question to my former 
boss, Sue Burch, the CEO of the Visiting Nurse Association?
    Senator Udall. Sure.
    Ms. Kramer. She might have some thoughts about this.
    Senator Udall. Sue, would you? If you do, great. If you'd 
join us at the microphone? If you've been caught off-guard, I 
understand. It happens to me occasionally. We can have you 
submit some thoughts for the record, as well.
    Sir, are you talking about both doctors and nurses, PAs, 
across the board?
    Mr. Aguilera. Yes. I know that the junior colleges or 
community colleges of Otero, Trinidad, Lamar, they all have 
nursing programs, but, you know, sometimes they stick, 
sometimes they don't. I think they do a real good job in 
training their nurses.
    Senator Udall. Sue, if you'd like, please.
    Ms. Burch. I would just respond to that question and 
suggest that there really are three solutions to this very 
significant problem.
    We are so fortunate in the northwest corner to have created 
such an integrated model that it is now attracting the 
professionals that we need. In fact, we will be stealing from 
Wyoming a geriatrician to the Steamboat Springs area who is 
coming because of her belief in the integration of what we're 
talking about and I think it was Steve and Paul referred to not 
only do we have to break down the social and medical--actually, 
it was Kathy, but this physician said you are creating exactly 
what I yearn to work in and so we have seen the two recent 
physicians that have come to the region, to the Moffett County, 
Craig area, come because of the flexibility that we are 
creating.
    The other thing I heard up here, I think it was from--I 
keep thinking it was from this side of the table but it might 
have been Kathy, as well.
    But the mandate really, and I would hope, I know it's not a 
mandate yet, but I would hope that AOA really--OAA, I'm sorry, 
really helps us push on this issue of inter-disciplinary 
teaming. It's a hospice model. We need to get it upstream way 
ahead of hospice and physicians and the professionals yearn to 
work together in a different way and it attracts them. It keeps 
them in. It keeps them very involved.
    Then, last, I think we also have to create it so that our 
senior health centers, senior wellness centers, and it sounds 
like it's going on in San Diego, become hubs for training these 
students in geriatrics or in aging models and we are very 
fortunate to be attracting students from the University of 
Colorado as well as other locations, Regis and other schools, 
that are wanting to come and send their students, public health 
students, nursing students, physician students, because they 
love the social and medical mix and so those would be three 
very practical ways that we can infuse more of that and all of 
it is a relaxing of regulations and if I could just piggyback 
on the next question, I don't know if that helps at all, but I 
want to know from panel members and I know we have some 
examples locally, but what bridges, Kathy, are being built at 
the Federal level, at the national level, at the state level, 
and certainly at the local level, what bridges between 
departments will help us break down these silos, and what is 
being done at the administrative level to really foster more of 
this flexibility and integration?
    Senator Udall. Let's have the panelists respond and then as 
we conclude, I know that Assistant Secretary's also prepared to 
make some remarks and she may at that time want to respond, as 
well.
    So if any panelists would like to respond, please.
    Mr. Downey. I cannot say how much I agree with the idea of 
the interdisciplinary team. That's one of the things we're 
teaching with our San Diego State model, but the interesting 
thing, I have a licensed clinical social worker who's my chief 
operating officer and she's in her 50's and she was taught as 
part of an interdisciplinary team and we got away from that and 
so what we're kind of doing is going and dusting off an old 
model that worked really, really well.
    But if we're going to be successful and leverage resources, 
we have to do that.
    Senator Udall. Others want to respond to Sue?
    Ms. Kramer. I would just say, and this is really more 
directed at the Assistant Secretary Greenlee, the one thing I 
did not get a chance to say is that I'm not part of the Aging 
Network in the state, although many of my favorite people are 
in the network. We're not a AAA. We are a public health agency.
    We do these things which meet the goals and objectives of 
particularly the 2006 amendments to the Older Americans Act, 
but we receive, other than a very small amount of funding which 
actually ran out in February because we exceed--our demand 
exceeded our ability to cover it, we receive a very small 
amount of Title III funding for our senior wellness checks and 
our foot care program.
    But some of the more innovative things that the Aging Well 
Program does are funded entirely by grant funds and I would 
like to really see some--again, and you spoke to it, but some 
bridging of the original intent of this Act which was to be a 
partner with Medicare and CMS and to try to find programs that 
are not penalized if they're an organic program that, like the 
San Diego program, like Aging Well, that aren't penalized 
because we don't have sustainable funding.
    Next year, this program might go away because OAA does not 
support us. So that's my pitch for being a community 
collaboration that works and meets the objectives but is not in 
the traditional conduit for those funds.
    Senator Udall. If I might, too, respond to the gentleman's 
initial question, in the Affordable Care Act, there is a 
provision which was based on a piece of legislation I 
introduced called the Rural Physicians Pipeline Act and it was 
based, the legislation, on a model that's been developed at CU 
whereby recruiters go into rural communities, convince young 
future doctors that it makes sense to attend medical school, 
shoulder the burden that it will cost you financially with an 
understanding that that burden will be lessened if you will 
return to that rural community in which to practice medicine. 
It's been very successful.
    It needs resources and the idea was attractive enough to me 
and my team and ultimately to the U.S. Senate that we included 
it in the final version of the landmark healthcare reform 
efforts.
    Now we have to find the monies for it. We did get some 
initial appropriation from Senator Harkin's subcommittee, 
right, Jake, and so it's underway. This will take time 
obviously because training a doctor doesn't happen overnight, 
but if you think about that part of the pipeline being enhanced 
and funded along with this interesting idea that you create a 
magnet effect in rural communities that begin to implement this 
interdisciplinary approach, then that's certainly the beginning 
of meeting the challenge that you just outlined which we all 
know is a big one and one of the challenges--I know Kathy, 
Secretary Sebelius and all of us as we provide care to all 
Americans, we're going to need additional providers.
    It's an important acknowledgement to make but it's a 
problem I'd rather have because what we're doing in providing 
care for all Americans is the smart and the right and the moral 
thing to do.
    Who else would like to ask a question or make a comment?
    Mr. Coffey. Kind of an observation more than a question.
    Senator Udall. Yes, sir.
    Mr. Coffey. My name's Todd Coffey. I'm the manager of the 
State Unit on Aging.
    Senator Udall. You were referenced earlier, right?
    Mr. Coffey. Yes, I was, sometimes in vain. My observation 
is I'm a member of the National Association of State Units on 
Aging which recently changed its name to the National 
Association of States United for Aging and Disabilities.
    The main reason why we made that name change was to 
acknowledge that interaction and overlap between the services 
that the Aging Network provides for older adults as well as the 
people with disabilities and to the extent possible that the 
Act can acknowledge that interaction and build in supports so 
we can serve people that might be 55 years old that are 
disabled, not eligible for Medicaid, can't access any other 
type of funding stream, and to customize programs that can meet 
both groups of people. I think that's an important goal of what 
NASUA is trying to do, too.
    Senator Udall. Thank you. Anybody care to comment on Todd's 
comments?
    Mr. Nawrocki. Senator?
    Senator Udall. Yes?
    Mr. Nawrocki. Again, I think I have kind of had alluded to 
that in terms of providing services to the disabled within our 
community. We're able to do that through some of our programs, 
but it really is difficult when they don't meet the criteria 
and that for all practical purposes, if they're living in a 
high-rise senior apartment building, then they can get Meals on 
Wheels.
    But in terms of out in the community, there's such great 
need for that. I only see that growing because of all the 
disabled vets.
    Senator Udall. Again, I know we can continue at some 
length. I'm going to ask the Assistant Secretary to return to 
the dais, if that's comfortable, and share some of her final 
thoughts and responses and then when she's finished, I'll wrap 
up with some very brief comments, including a thank you to 
Jerry and Pueblo, and we'll move on to the rest of our day.
    Madam Secretary, the floor is yours again.
    Ms. Greenlee. I'll try and be succinct, but there are so 
many areas and so many topics.
    I wanted to back completely up and frame this really in the 
largest context that I know how. It is quite an honor to serve 
the country as Assistant Secretary. At this level, you have the 
opportunity to do something that you don't have at the state 
level and that's to represent the U.S. internationally. I have 
had that opportunity twice, to speak at a non-governmental 
organization event that AARP International did at the United 
Nations, and I also spoke at the International Federation on 
Aging Conference in Melbourne, Australia. At that point is the 
only time that I've been able to stop and really applaud the 
successes that we've had in this country.
    Passing Social Security for seniors in 1935 has been 
pivotal to dealing with poverty. Most of the people in the 
world who are aging don't have that kind of comfort. Passing 
Medicare and Medicaid in 1965 was enormous for providing 
support people as they age in terms of their health, as well as 
preventing poverty, if they're dually eligible. Those successes 
are things we need to acknowledge that we have done and be very 
proud of.
    Those very successes also present, I think, a challenge for 
all of us in this room, whether we're in the executive branch 
or the legislative branch. It can certainly lead to the 
question didn't we cover everything when we added those three 
laws? It's important that we all stop and champion together the 
fourth leg of this stool which is the Older Americans Act. Even 
with Social Security, Medicare and Medicaid, huge programs, 
there are still unmet needs that seniors have to help them 
sustain their lives in their communities and with their 
families. So regardless of how we go forward and my work in 
promoting the Act on behalf of the Administration and the work 
of the Senate and Congress, the core need that all of us have 
is to stop and acknowledge that, yes, we need this. We didn't 
cover the waterfront with those three laws, that this law is 
critical, and as Dace was saying, the Older Americans Act does 
not support you but AOA does.
    There's a complete distinction between what we can do with 
the law, in the way it's written, the way it's funded, and the 
fact that this is a critical service that we're providing. We 
all need to be champions, I think, for the fact that seniors 
need these services, however they're written and however 
they're funded, that they're necessary, and that they are vital 
to our communities and to our livelihood. Moving forward, they 
will be even more important. So wherever we go from here, 
that's the unifying message.
    The eligibility age of 60 came up and I just want to 
address it because it will come up in the reauthorization and 
always has. The age issue can walk you completely around in a 
circle. The purpose of the law is to target those in most need. 
As we look at the reauthorization, we must all go back to that 
section and look at the definitions of people who are the most 
needy.
    Although the law says that someone is eligible for services 
at 60, that is not the dynamic or the demographic of the people 
we tend to serve. Most of the people that we serve are the most 
frail, the oldest, and the most unhealthy Americans so that we 
have met the targeted goal of assisting people who are most 
needy.
    The age of 60 itself has been interesting to explain. I 
first had to explain it to Secretary Sebelius when she was 
Governor Sebelius when she turned 60 and, yes, I'm not saying 
60's old, but 60 is----
    Senator Udall. It wasn't that long ago.
    Ms. Greenlee. Yes. She's 62 now. Age 60 is a starting 
point. People wonder whether it should be moved to 65 to 
coincide with Medicare. Social Security now for many people 
starts at 67. People wonder if it should start at 50. The 
number itself can be tricky. The underlying issue is the real 
goal that we must figure out is what are the best ways to 
articulate the targeting of those in need. The number itself is 
not the issue, it's the targeting of the need. The other thing 
that's very important to consider when we're talking about a 
number is that health disparities do exist in this country. For 
people of color who have had difficulty accessing healthcare in 
the same way as have general population, certainly the white 
population has impacts these services, as well.
    Once we start changing the number, we have to be mindful of 
the impact on all populations, so that we don't create 
disparities with the eligibility age itself. Then we can figure 
out how to best address the issues of disability.
    I think that can best be done with having our partners from 
the field of disability at the table and recognizing that we 
have disability advocates and systems that are our companions 
and they need to be here.
    In terms of the Affordable Care Act and the inter-
disciplinary needs, they're there. Congress passed that law. 
We're working hard to implement it but issues remain with 
regard to rural providers, encouraging innovation, and building 
on partnerships between the Administration on Aging, the Health 
Resources Services Administration, that funds the low-income 
clinics, as well as our partners at CMS.
    Everyone at HHS is pulling together to find these 
opportunities. It has been an exciting time to be literally at 
the table with the Department of Health and Human Services when 
we try to implement this phenomenal change in the laws given 
with the things that we can do now to assist all Americans, as 
well as for seniors which, of course, is my main focus at A.A.
    So thank you all very much for having me.
    Senator Udall. Thank you, Secretary, and let me make a few 
final comments.
    First, I want to thank CSU Pueblo for hosting us. This is a 
wonderful resource and asset for Southern Colorado. President 
Garcia has been an outstanding leader, I know. I'm very proud 
to know him and honored to know him. If he'd have talked to me 
about getting into politics, though, I might have changed his 
mind, but, anyway, he's, I know, well served by his team here.
    Jerry, thank you for your public service. Thanks for the 
nice introduction, leading us in the Pledge of Allegiance. I 
thank those who traveled a long way to be here with us.
    On behalf of the Chairman Herb Kohl of Wisconsin, I want 
everybody here to know that the testimony will be taken 
seriously. It will be studied. The questions that were answered 
will be utilized as we move to reauthorizing OAA and I will 
submit some additional questions for the record, as well, to 
the panelists.
    I really did want to hear from those who've taken the time 
to join us. I want to thank those in the audience who are part 
of this wonderful network that's involved with our citizens, 
and I wanted to echo what, Secretary, you said about Social 
Security, Medicare, Medicaid, and I've certainly learned a lot 
about OAA today and add this perspective.
    One of the most important elements that sometimes isn't 
acknowledged, particularly by critics of Social Security and 
Medicare and Medicaid, and hopefully to a lesser extent by 
critics of OAA, is that because of those landmark programs our 
generation has known that our parents will be treated with 
dignity, with respect and will not live their final years in 
poverty, and that's enabled me and millions of other Americans 
to raise our families and pursue our careers with those 
assurances and with that security.
    That's a wonderful gift that is a result of those leaders 
and those visionaries, both Democrats and Republicans, by the 
way, who supported these four key programs, and my final 
comment would be one that has, I think, both moral and 
practical components and that is, I think that we all agree as 
Americans there's a value that every one of us has a 
contribution to make throughout our lives and we would also, I 
think, agree that you measure society by how it treats its 
least fortunate and most vulnerable populations, whether they 
be children, the disabled, or the elderly.
    Thank you, all.
    [Whereupon, at 1:05 p.m., the hearing was adjourned.]

                                 <all>

</pre></body></html>
